<html>
<title> - THE EFFECTIVENESS OF OUR NATION'S PUBLIC ALERT SYSTEM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




                   THE EFFECTIVENESS OF OUR NATION'S
                          PUBLIC ALERT SYSTEM

=======================================================================

                                (112-67)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 13, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
71-738 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
Tennessee

                                 _____

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                   JEFF DENHAM, California, Chairman
TIMOTHY V. JOHNSON, Illinois         ELEANOR HOLMES NORTON, District of 
ERIC A. ``RICK'' CRAWFORD,               Columbia
    Arkansas,                        HEATH SHULER, North Carolina
  Vice Chair                         MICHAEL H. MICHAUD, Maine
RANDY HULTGREN, Illinois             RUSS CARNAHAN, Missouri
LOU BARLETTA, Pennsylvania           TIMOTHY J. WALZ, Minnesota
BOB GIBBS, Ohio                      DONNA F. EDWARDS, Maryland
PATRICK MEEHAN, Pennsylvania         BOB FILNER, California
RICHARD L. HANNA, New York           NICK J. RAHALL II, West Virginia
CHARLES J. ``CHUCK'' FLEISCHMANN,      (Ex Officio)
    Tennessee
JOHN L. MICA, Florida (Ex Officio)

                                  (ii)













                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Damon Penn, Assistant Administrator, National Continuity 
  Programs, Federal Emergency Management Agency..................     3
James Arden Barnett, Jr., Rear Admiral (Ret.), Chief, Public 
  Safety and Homeland Security Bureau, Federal Communications 
  Commission.....................................................     3
Suzanne D. Goucher, President and CEO, Maine Association of 
  Broadcasters...................................................     3
Christopher Guttman-McCabe, Vice President, Regulatory Affairs, 
  CTIA--The Wireless Association.................................     3
William Check, Ph.D., Senior Vice President of Science and 
  Technology, National Cable and Telecommunications Association..     3

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Eleanor Holmes Norton, of the District of Columbia..........    24

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Damon Penn.......................................................    26
James Arden Barnett, Jr..........................................    32
Suzanne D. Goucher...............................................    38
Christopher Guttman-McCabe.......................................    51
William Check, Ph.D..............................................    56

                         ADDITION TO THE RECORD

John I. Taylor, Vice President, Government Relations and 
  Communications, LG Electronics USA, Inc., letter and attachment 
  to Hon. Jeff Denham, a Representative in Congress from the 
  State of California, December 13, 2011.........................    64

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 
                   THE EFFECTIVENESS OF OUR NATION'S
                          PUBLIC ALERT SYSTEM

                              ----------                              


                       TUESDAY, DECEMBER 13, 2011

                  House of Representatives,
       Subcommittee on Economic Development, Public
               Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:33 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Jeff Denham 
(Chairman of the subcommittee) presiding.
    Mr. Denham. The subcommittee will come to order. Today's 
hearing is on the effectiveness of our Nation's public alert 
system. Many of us recall the old Emergency Broadcast System 
and periodic interruption of our TV viewing with an audio 
announcement and very distinctive annoying tones.
    Today we have the Emergency Alert System and EAS. However, 
the backbone of that system is still largely based on 1960s 
technology. Last month FEMA conducted the first-ever nationwide 
test of the EAS. To be clear, after almost 50 years, we just 
recently conducted the first nationwide test.
    In 2009 GAO raised this as a serious issue: How can we 
count on a national alerting system that has never been fully 
tested? And the test revealed several shortcomings. Some 
stations failed to rebroadcast; music of Lady Gaga seized some 
airwaves; and apparent feedback affected the transmission of 
the message to some locations.
    With that said, I am sure FEMA expected some problems, and 
thankfully we finally did a nationwide test so the problems 
could be identified and corrected.
    While a nationwide test is significant, the test only 
included EAS and the components of the legacy system consisting 
of TV and radio. Today it seems we are constantly bombarded by 
information through not only broadcast TV and radio, but also 
satellite TV and radio cable, cell phones, social networking, 
and the Internet. It would seem that today if the public needed 
to be alerted quickly to an impending disaster it would be 
fairly easy to get the word out.
    We saw just last week how important an effective alert 
system is to saving lives. At Virginia Tech, the University's 
Emergency Alert System kept students in place and out of harm's 
way in the moments following the tragic shooting. And as 
demonstrated this year with devastating tornados, hurricanes, 
and floods around our Nation, improving alerting capability 
will help save even more lives.
    In 2006 former President George Bush signed an executive 
order to direct our Nation's alert system was brought into the 
21st century. There is no reason with modern technology for the 
public not to expect that in a serious emergency, alert would 
be sent through many communication mediums as possible, not 
just TV and radio, but all communication devices. And modern 
technology opens up capabilities that in the past were not 
possible: transmitting information that can help facilitate the 
alerting of those with disabilities and people with limited 
English proficiency.
    So the Integrated Public Alert and Warning System was 
envisioned to be a system of systems, to use as many methods of 
communication as possible, to reach as many people as possible. 
Unfortunately, since IPAWS was conceived, there have been many 
setbacks and lack of strategic direction. These concerns raise 
serious doubts about whether we could properly warn the public 
of a disaster.
    Earlier this year, Ranking Member Norton and I introduced 
the Integrated Public Alert and Warning System Modernization 
Act. This legislation is modeled after the WARN Act that 
effectively provided a framework led by the FCC for the 
development of the Commercial Mobile Telephone Alerts, or CMAS, 
the wireless components of IPAWS. CMAS, when fully deployed as 
part of IPAWS, will transmit text alerts to wireless devices. 
While adding wireless devices is a first good step, great first 
step, ultimately sending more than simple text is what is 
envisioned with IPAWS.
    I hope today we can hear from FEMA and the FCC and some of 
the key industries involved in the development of IPAWS to help 
our subcommittee assess the work being done. At the end of the 
day we all share a mutual goal: the safety of the public. That 
is why Ranking Member Norton and I recently requested GAO 
review the current status of the development of IPAWS. We must 
ensure we have a reliable systems that will send a warning out 
to as many people as possible. With modern technology there is 
no reason we can't achieve that goal.
    I thank the witnesses for being here today to address many 
important issues. And I will allow Ranking Member Norton her 5 
minutes as soon as she arrives.
    Our first panel this morning: Mr. Damon Penn, assistant 
administrator, national continuity programs, Federal Emergency 
Management Agency; Mr. James Arden Barnett, Jr., chief public 
safety and homeland security bureau of the FCC; Ms. Suzanne 
Goucher, president and CEO of Maine Association of 
Broadcasters; Mr. Chris Guttman-McCabe, vice president, 
regulatory affairs for The Wireless Association; and Dr. 
William Check, senior vice president of science and technology, 
for the National Cable and Telecommunications Agency. I ask 
unanimous consent that our witnesses' full statements be 
included in the record. Without objection, so ordered.

  TESTIMONY OF DAMON PENN, ASSISTANT ADMINISTRATOR, NATIONAL 
CONTINUITY PROGRAMS, FEDERAL EMERGENCY MANAGEMENT AGENCY; JAMES 
 ARDEN BARNETT, JR., REAR ADMIRAL (RET.), CHIEF, PUBLIC SAFETY 
     AND HOMELAND SECURITY BUREAU, FEDERAL COMMUNICATIONS 
   COMMISSION; SUZANNE D. GOUCHER, PRESIDENT AND CEO, MAINE 
 ASSOCIATION OF BROADCASTERS; CHRISTOPHER GUTTMAN-MCCABE, VICE 
PRESIDENT, REGULATORY AFFAIRS, CTIA--THE WIRELESS ASSOCIATION; 
AND WILLIAM CHECK, PH.D., SENIOR VICE PRESIDENT OF SCIENCE AND 
 TECHNOLOGY, NATIONAL CABLE AND TELECOMMUNICATIONS ASSOCIATION

    Mr. Denham. Since your written testimony has been made part 
of the record, the subcommittee would request that you limit 
your oral testimony to 5 minutes. Mr. Penn, you may proceed.
    Mr. Penn. Good morning, Chairman, Ranking Member Norton and 
distinguished members of the subcommittee, it is a pleasure and 
an honor for me to appear before you on behalf of FEMA to 
discuss the progress we have made in the Integrated Public 
Alert and Warning System.
    FEMA serves as the Nation's focal point for Government 
continuity planning, guidance, and operational support. We are 
also responsible for ensuring the President is able to address 
the Nation under the most extreme circumstances, and IPAWS is 
the capability we use to accomplish this task. Our vision for 
IPAWS has not changed. We are tasked to provide timely and 
accurate alerts and warnings to the American people in the 
preservation of life and property. We do this by relaying a 
single message over multiple dissemination platforms to ensure 
redundant pathways to alert the public by multiple means. IPAWS 
is an integrated capability, accessible to all levels of public 
safety officials.
    We have made significant progress since I last testified 
before the subcommittee 2 years ago. We have adopted and 
accepted the common alert protocol to ensure all alerts and 
warnings equipment is compatible. We have extended the primary 
entry-point program from 36 stations to 63 stations, and we 
will increase that number to 77 by the end of next year.
    We have established, tested, and fielded the IPAWS 
aggregator, and that is the device that takes a single message 
and distributes it to the different alert disseminators. And we 
have developed and fielded a training program to help message-
originating authorities produce valuable alerts and warnings 
and meet the standard criteria of urgency, certainty, and 
severity.
    Our two latest achievements are the fielding of the 
Commercial Mobile Alert System, CMAS/PLAN, and the conduct of 
the first nationwide Emergency Alert System's testing.
    And I would like to take a moment to expand on both of 
these projects. Adding to the CMAS/PLAN capability allows 
trained and authorized emergency management officials to pass a 
text message alert directly through IPAWS to participating 
wireless carriers, to any CMAS-capable cell phone or handheld 
device located in the geo-targeted area. CMAS/PLAN technology 
is immune to wireless call congestion so cell phones can 
receive emergency alerts even if wireless towers in the 
location are overwhelmed and can no longer support cellular 
phone calls or subscriber-to-subscriber text messaging.
    Additionally, by using IPAWS-compatible software, State, 
local, territorial, and tribal officials can, at no cost, use 
CMAS/PLAN to alert and warn individuals in particular areas 
about imminent threat events as well as AMBER emergencies.
    This is not emerging technology, but a capability that is 
currently being fielded. Thanks to overwhelming support by the 
wireless industry, the first capability of the system has been 
fielded in New York City and in the Washington, DC, area. Final 
testing will be conducted in DC later this month and final 
testing in New York City will take place on Thursday of this 
week. The initial capability will be available 4 months ahead 
of the originally mandated schedule. Nationwide, the deployment 
will continue over the next 2 years.
    Thanks to our partnership and support from the FCC, NOAA, 
radio and television providers, the cable industry and the 
satellite industry, emergency managers across the Nation, we 
conducted the first-ever nationwide test of EAS. The test was a 
success and an essential step in moving forward to improving 
the EAS system. Although data from the field will not be 
available until the end of the month, we have already begun 
work to solve some technical issues discovered during the test. 
We learned that parts of the system worked as envisioned or 
better. But more importantly, we learned what didn't work.
    For example, message propagation through the PEP stations 
was better than anticipated, but we also discovered that we 
have work to do to improve audio transmission quality and to 
improve the accessibility of the text to serve the deaf and 
hard-of-hearing community. And we have already done some work 
to begin addressing those issues. I can further explain during 
questions and answers if you would like.
    From here we will analyze results, determine root causes, 
develop and implement corrective actions, and retest as 
necessary to ensure we have a system that serves our whole 
community of Americans.
    Developing strategy for success in the future requires a 
shift in our basic approach. IPAWS moved from a requirements-
based single technology network approach to an application-
based open platform approach. This ensures that IPAWS can 
easily integrate with a broad range of information processing 
technologies, networks, and equipment from existing private 
sector communication systems.
    To support people with access and functional needs, FEMA 
remains engaged with agencies, organizations, and conferences 
and private industry to promote the IPAWS capability and 
integrate alerts and warning technology into their communities. 
We have also partnered with private and public organizations to 
demonstrate products and incorporate CAP-enabled technologies 
to alert persons with access and functional needs.
    In conclusion, the IPAWS vision of providing timely alert 
and warning information to the American people and the 
preservation of life and property remains clear and consistent. 
And, FEMA is fully committed to IPAWS and recognizes the 
importance of the whole community of American public.
    Thank you, sir, for the opportunity to appear and testify 
before the committee, and I will be happy to answer any 
questions you may have.
    Mr. Denham. Thank you.
    Mr. Barnett.
    Mr. Barnett. Chairman Denham, members of the subcommittee, 
thanks for the opportunity to come and talk to you today about 
the FCC's recent work in alerts and warning the public.
    One of the FCC's primary statutory obligations is to 
promote the safety of life and property through the use of wire 
radio communications. The FCC has a singular commitment to 
protection of the public through constantly evolving alert and 
warning systems. We recognize that this should be a team 
effort.
    I am very pleased to be here with my friend and colleague, 
Damon Penn, of FEMA. The FCC works closely with FEMA, with our 
other Federal partners, the National Weather Service, with 
telecommunications industry, to bring the future of alert and 
warning systems to consumers now.
    So pursuant to the WARN Act, the FCC in 2008 adopted rules 
for what we call the Personal Localized Alerting Network or 
PLAN, also as Chairman Denham mentioned CMAS, an emerging 
alerting system that wireless carriers sign up for voluntarily 
which will transmit emergency text-like alerts to subscribers' 
cell phones. Under the FCC's rules the carriers, the 
participating carriers, must begin to plan deployment by April 
7th of 2012. But in May of this year Chairman Genachowski, FEMA 
Administrator Fugate, New York City Mayor Michael Bloomberg, 
and top executives from four of the major nationwide wireless 
carriers. AT&T, Sprint, T-Mobile, and Verizon Wireless 
announced that PLAN would be available in New York City by the 
end of the year, months ahead of schedule.
    PLAN will serve as an important complement to the other 
alert and warning systems, like the Emergency Alert System, 
EAS. The alerts will be geographically targeted, ensuring that 
they will reach the right people, at the right time, with the 
right messages, and this will ensure that alerts reach only 
those people who actually are in danger. It creates a fast lane 
for emergency alerts so that vital information is guaranteed to 
get through, even if there is congestion in the network. 
Moreover, PLAN has the additional feature of neither the alert 
originator nor anyone administering the system will know who 
receives the alert. PLAN cannot be used to monitor wireless 
devices or a consumer's location. Pursuant to the WARN Act, 
subscribers may opt out of receiving all but the national 
emergency alerts.
    The FCC has also taken action to enhance the EAS system. 
Last month the FCC, with FEMA, did in fact, as Damon mentioned, 
conduct the first-ever nationwide top-to-bottom test of the 
EAS. The purpose of the test was diagnostic, to allow the FCC 
and FEMA to determine how well the system would work if 
activated during an actual national emergency. Prior to the 
test, the FCC and FEMA, along with EAS participants, State and 
local governments, and other stakeholders took significant 
steps to educate the participants, public safety and other 
State, tribal, local governments, and consumers about the test.
    For example, the FCC released a step-by-step guide for EAS 
participants to use during the test. Some materials were 
briefed over 40 organizations representing State, tribal, and 
local governments about the test, and over 100 community and 
consumer organizations, including those who represent the deaf 
and hard of hearing, and people who do not speak English as 
their primary language.
    Under the FCC rules, EAS participants have until December 
27th, 2011, to submit test result data to the FCC. Once we 
receive this data, in conjunction with FEMA, we will analyze it 
to determine what worked and what didn't, and make 
recommendations for improvements as necessary.
    Some improvements actually are already scheduled. The first 
step to modernize the EAS will take place next year--or has 
taken until next year with introduction of work transmissions 
using common alerting protocol, or CAP. Once implemented, CAP-
based alerting will enable the migration of the current EAS to 
a next-generation learning system to provide a host of features 
not possible under the current technology.
    The FCC will continue to explore whether other 
communication technologies can provide ways for Americans to 
receive alerts and warnings about imminent threats to safety of 
life. As recommended by the national broadband plan, the FCC 
will examine the role of broadband technologies, social 
networks, and other Internet-based tools and how they can play 
in emergency alerting. We will continue to work closely with 
FEMA and the National Weather Service, industry, and State and 
local governments to ensure that the public has access to 
emergency alerts, warnings and information over multiple 
communication technologies.
    I appreciate the opportunity to appear before you today and 
I look forward to your questions.
    Mr. Denham. Ms. Goucher, you may proceed.
    Ms. Goucher. Thank you, Mr. Chairman and distinguished 
members of the committee. My name is Suzanne Goucher. I thank 
you very much for your interest in improving emergency 
communications to the public. I am honored to be here with you 
to share the valuable, often life-saving public service that 
full power local radio and television stations provide during 
times of crisis.
    When disaster strikes, Americans know they can turn to 
their local broadcasters for news and information. When the 
power goes out, when phone service and the Internet go down, 
broadcasters move heaven and earth to stay on the air, 
delivering vital information to their audiences. Through 
wildfires, floods, tornados, hurricanes, everywhere across our 
Nation, local communities depend on their broadcasters to keep 
them informed before, during, and after disaster strikes.
    Broadcasters are also proud of our keystone role in the 
Emergency Alert System. For 60 years, from the CONELRAD days of 
the Cold War, through the Emergency Broadcast System, to EAS, 
and now on to the next generation of alerting, broadcasters 
stand ready to be America's first informers. We consider the 
delivery of timely alerts and warnings to be the highest and 
best use of our spectrum, our facilities, and our resources.
    For example, after the abduction and murder of Amber 
Hagerman in 1996, Dallas area broadcasters initiated the 
creation of the first AMBER Alert program. The Oklahoma 
Association of Broadcasters subsequently developed the first 
statewide AMBER plan which became the model for similar 
programs across the Nation. To date, AMBER Alerts have aided in 
the successful recovery of 542 abducted children across the 
U.S.
    The hot new buzz in the alerting community is social 
networking, and broadcasters are also leveraging their news 
dissemination capabilities across these pathways. When you 
receive an email, a text alert, or a Facebook message from your 
local radio or TV station, you know you are getting reliable 
information from an authoritative source.
    The nationwide EAS was tested for the first time last 
month, and in my view the test was a success. It was the first 
time an official national alert message was purposely deployed 
end to end throughout the system. There were technical problems 
with the origination of the message, and there were also a few 
scattered problems with reception of the test message through 
the primary entry-point network. This is precisely why systems 
should be tested on an ongoing basis.
    We fully support the plan by FEMA and the FCC to test the 
nationwide EAS on a regular basis going forward. EAS is tested 
weekly by each radio and TV station, and monthly within each 
State. Such tests allow message disseminators to confirm that 
their equipment is working properly or to diagnose and fix any 
problems. It only makes sense that we should also be regularly 
testing the ability of the Federal Government to send an alert 
message throughout the Nation.
    The ongoing effectiveness of EAS depends on a few important 
factors.
    First, a training program for State and local public safety 
officials on how to use EAS is desperately needed. The 
knowledge and expertise of some local authorities as to how and 
when to deploy EAS is currently at what we consider an 
unacceptable level. We stand ready to deliver the message, but 
first we need someone to deliver it to us. We applaud our 
friends at FEMA for undertaking the development of a training 
program which will certify State and local officials to send 
alerts through the Federal IPAWS gateway.
    While this is a good first step, it does not address those 
State and local officials who don't have the fundamental 
understanding of or willingness to use EAS in the first place. 
Some sort of incentive for them to take this training, such as 
incorporating it into the National Incident Management System, 
would encourage a greater understanding of the beneficial uses 
of the system.
    Secondly, we thank the committee for considering H.R. 2904, 
which would direct the creation of a national advisory 
committee on emergency alerting, and we respectfully urge that 
this committee be made permanent. Governance authority for our 
national warning system is divided among several Federal 
agencies, while the primary use of the system is at the State 
and local level. At present there is no mechanism to bring all 
of the message originators and the message deliverers together, 
except on an ad hoc basis. As a result, the system not being 
used as effectively as it as could be.
    Creation of a permanent advisory committee would help to 
ensure that problems get addressed and ideas for continual 
improvement of the system are brought to the fore.
    The overarching significance of H.R. 2904 is that it also 
authorizes the Integrated Public Alert and Warning System in 
law. This demonstrates your recognition of the vital importance 
of this system. It a crucial step forward in ensuring that all 
parts of the system--broadcast alerts, cell phone text 
messages, and other communications pathways--will be developed 
as a unified whole that becomes greater than the sum of its 
parts.
    I am grateful for this opportunity to share my views on 
emergency communications to the public and the indispensable 
role of broadcasters. And I look forward to working with you 
toward our shared goal of keeping the American people safe 
through timely alerts and warnings. Thank you.
    Mr. Denham. Thank you.
    Mr. Guttman-McCabe.
    Mr. Guttman-McCabe. Thank you. Good morning, Chairman 
Denham and members of the subcommittee. Thank you for affording 
CTIA the opportunity to participate in today's hearing.
    My name is Christopher Guttman-McCabe, and I serve as the 
Association's vice president for regulatory affairs. In that 
capacity I have been involved in the wireless industry's 
efforts to implement the commercial mobile alert service called 
for by the WARN Act. And I am pleased to have the chance to 
share with you today that the wireless industry is doing what 
is necessary to deliver a state-of-the-art alerting system by 
early 2012.
    The approach taken in the WARN Act was consistent with and 
built upon previous public-private partnerships that led to the 
successful creation of both wireless priority service and the 
AMBER Alert program.
    In the WARN Act Congress secured the participation of 
interested nongovernmental parties in the development and 
deployment of what has been envisioned as a 90 character, geo-
targeted, succinct alerting capability that would let consumers 
carrying a wireless device know that there is an imminent 
threat to health or safety.
    From CTIA's perspective it appears that Congress' vision is 
working as designed. In the first year after the WARN Act 
became law, the FCC established the Commercial Mobile Service 
Alert Advisory Committee, comprised of more than 40 individuals 
representing tribal, local, State and Federal Government 
agencies, communications providers, vendors, broadcasters, 
consumer groups, and other technical experts.
    I served on the advisory committee on behalf of CTIA. Over 
11 months the committee generated more than 600 documents, held 
hundreds of meetings, and spent thousands of man-hours to 
develop a thorough, workable, commercial mobile alerts systems 
plan. Following delivery of the advisory committee's 
recommendations, the FCC has issued orders initiating the 
process.
    Among other things, the FCC's orders set forth the alerting 
service architecture proposed by the advisory committee, and 
concluded that a Federal entity should aggregate, authenticate, 
and transmit alerts to the participating wireless providers. 
FEMA has agreed to play this role.
    The FCC has also required that participating providers must 
transmit three classes of alerts--Presidential, imminent 
threat, and AMBER Alerts--and consumers be permitted to opt out 
of the latter two, but not the first.
    Following issuance of the FCC's order, wireless carriers 
had to elect whether they would participate in the delivery of 
wireless emergency alerts well in advance of finalizing the 
technical specifications for implementing those alerts. I am 
pleased to report that approximately 100 mobile providers, 
representing 97 percent of wireless subscribers, have elected 
to provide emergency alerts, demonstrating the success of this 
public-private partnership. Moreover, this figure is likely to 
increase as additional carriers elect to offer the alert to 
their customers once the system is rolled out.
    Since providers made their initial elections in September 
2008, the wireless industry has been working in close 
consultation with both FEMA and the FCC to make the investments 
and modifications necessary to enable the wireless Emergency 
Alert System to be operational by April 2012. And I am pleased 
to report that providers have deployed and tested the elements 
of the wireless Emergency Alert System within their control, 
and currently have the capability to deliver wireless emergency 
alerts to New York City by the end of this year.
    While we believe the wireless industry is hitting all the 
marks necessary to deliver on the promise of the WARN Act, 
there are two key areas beyond wireless carriers' control that 
must be addressed if a seamless national deployment is to occur 
and be operational next year.
    First, FEMA must continue its hard work to stand up its 
wireless emergency alerts gateway and be capable of receiving 
and distributing alerts to all participating wireless carriers. 
The wireless industry has worked closely with FEMA and the FCC 
for well over a year to move this deployment forward, and we 
commend both agencies for their efforts to date.
    Second, substantial and ongoing care must be taken to 
ensure that potential alert at the State, county, and local 
levels are properly trained about when and how alerts should be 
originated. This is crucial because it is these alert 
originators who are responsible for disseminating critical 
information to the public in a timely manner. If consumers 
receive confusing, irrelevant, or overly frequent alerts, then 
even the best alerting system ultimately will fail.
    We urge you to exercise your oversight authority to ensure 
that these objectives are achieved. The wireless industry is 
committed to delivering wireless emergency alert capability 
next year and to working with FEMA and the FCC to ensure that 
subsequent generations of the system support additional 
functionality and granularity. With this in mind, we do not 
believe the wireless carriers that participate in the Emergency 
Alerting System should be subject to new requirements that 
emanate from the implementation of IPAWS.
    While IPAWS may help to modernize the distribution of 
alerts on other communications platforms, CMAS is the proper 
path to deliver and modernize emergency alerts provided over 
wireless networks. We hope you will keep this in mind as you 
consider legislative efforts like H.R. 2904.
    Thank you for the opportunity to appear on today's panel. I 
look forward to your questions.
    Mr. Denham. Thank you.
    Dr. Check.
    Mr. Check. Good morning, Chairman Denham and members of the 
subcommittee. My name is Bill Check. I am the senior vice 
president of science and technology, and the chief technology 
officer at the National Cable and Telecommunications 
Association, NCTA, the principal trade association representing 
cable operators and programming networks. Thank you for 
inviting me to testify today.
    Cable operators have been active participants in providing 
emergency alerts to their customers since the 1960s, and we 
recognize our role in ensuring that the public receives timely 
information during crises situations.
    By way of background, cable operators don't originate or 
alter emergency messages. FEMA transmits a message to a primary 
entry-point broadcast station, called a PEP, and then those 
stations transmit that message to local primary stations. Cable 
operators receive the message from these local primary stations 
and transmit it to their subscribers using automated equipment 
in the cable headend.
    Cable operators were among the participants in the recent 
November 9th first-ever nationwide test of the Emergency Alert 
System. Prior to the test, cable operators undertook 
significant outreach efforts to ensure that consumers were 
aware of the test. These efforts included running public 
service announcements, notices in customer bills, and the use 
of social media outlets. Our programming network members aired 
additional public service information about the test as well.
    We are still in the process of gathering and analyzing the 
test results from our member companies, and they expect to 
provide a full report to the FCC by December 27th. But 
preliminary analysis shows that most cable operators were 
successfully able to receive the transmitted Emergency Action 
Notification signal, known as an EAN, and to disseminate the 
EAN message to their customers.
    Some operators did experience various issues within their 
service areas, although most of the major problems originated 
upstream from cable systems. For instance, some cable providers 
didn't receive the emergency message from broadcast stations 
that they are required to monitor. And sometimes when cable 
systems did receive the emergency message, the message audio 
was muffled or distorted.
    Our companies also encountered some other technical issues 
that can be remedied. Cable operators look forward to 
continuing to work with the FCC, with FEMA, and others in an 
effort to resolve these issues.
    NCTA also appreciates efforts to further modernize our 
Nation's Emergency Alert Systems. And we support the goals of 
H.R. 2904. We support the initiation of a training program, the 
creation of an advisory committee, and that cable would be 
represented on this committee.
    We respectfully suggest, however, that legislation should 
take into consideration the work that has already been done in 
this area. The cable industry has devoted significant resources 
towards complying with the upcoming June 30th FCC deadline that 
requires systems to be able to receive emergency messages in 
what is known as the Common Alerting Protocol, or CAP. Any new 
standards, technology, and operating procedures should 
recognize and incorporate the work that has already been done 
and be consistent with existing regulatory directives.
    Finally, cable companies currently transmit the information 
as they receive it. While cable operators would, of course, 
pass through any alerts for non-English speakers and the 
hearing impaired, legislation should make clear that the 
obligation to make messages accessible should rest with the 
message originator.
    Thank you again for the opportunity to appear before you 
today on this important issue. We stand ready to work with the 
subcommittee, Congress, FEMA, and the FCC to meet our 
responsibilities. I would be pleased to answer any questions 
that you have, thank you.
    Mr. Denham. And thank you for your testimony.
    We now turn to Members for opening statements. The chair 
now recognizes Ranking Member Norton for a 5-minute opening.
    Ms. Norton. I am simply going to ask, since I apologize 
that I could not be here at the opening of this hearing, a very 
important hearing, I am going to ask that my opening statement 
be included in the record.
    Mr. Denham. Thank you.
    Mr. Crawford.
    Mr. Michaud?
    Mr. Michaud. Thank you, Mr. Chairman. First of all, I would 
like to thank all the witnesses for being here. I particularly 
would like to recognize Suzanne Goucher who is the president 
and CEO of Maine Association of Broadcasters. Suzanne has been 
part of of the Maine Association of Broadcasters since 1994. 
She has also served as cochair of the Maine Business 
Association Roundtable, and is former president of the Alliance 
of State Broadcasters Association. I have had numerous 
opportunities to work with Suzanne on a range of issues, and I 
have always found her to be a dedicated and thoughtful 
advocate. It has been an honor to work with Suzanne in the 
past, and have no doubt that the Maine broadcasters greatly 
appreciate her as their representative. I want to thank you for 
being here today, Suzanne, as well as the rest of the 
witnesses.
    I yield back. Do you want to do questions now?
    Mr. Denham. We will start with opening questions. The first 
question I have, I have a number of different questions on the 
nationwide test that we did. But it has come to my attention 
that yesterday there was an unannounced test in New Jersey. The 
text messages warning came out with a civil emergency and a 
call to action to take shelter. Was that a FEMA emergency?
    Mr. Penn. Mr. Chair, no, that was a provider doing some 
testing for our release of CMAS later this week and the test in 
New York City. One of the providers had a technological glitch 
where they connected the testing platform to the production 
platform and broadcast the message.
    Mr. Denham. So that was something that was coordinated with 
FEMA?
    Mr. Penn. No, sir, it was not. It was not part of their--
the message origination did occur from us in the testing 
environment. The problem occurred when the carrier crossed the 
testing environment with the production and output, and that is 
what caused the message to be released.
    Mr. Denham. So the message was never supposed to be 
released?
    Mr. Penn. That is correct. The message was only working in 
a closed environment when we were doing final testing for 
Thursday's test. And, when they crossed it with their normal 
broadcast, that is when the message got released.
    Mr. Denham. Thank you. Mr. Guttman-McCabe.
    Mr. Guttman-McCabe. Yes, thank you, Mr. Chairman. That is 
correct. One of our carriers was in the process of the runup to 
the full test in New York City on Thursday. And as part of that 
they were testing their end, and a FEMA-originated message was 
unfortunately--found its way to the test gateway of one of the 
carriers. And as a result, it went out to several customers--to 
customers in several counties in New Jersey. And this I think 
was the result of both FEMA and the carriers working tirelessly 
to get ready 4 months in advance to deliver the service to New 
York. Hopefully, as soon as this Thursday, have it up and 
operational.
    Mr. Denham. When there is such a test, whether it is 
internal or external, are the local law enforcement agencies 
normally notified?
    Mr. Guttman-McCabe. Yes. I will defer to Mr. Penn, but 
usually they are. In fact, they will be notified in advance of 
Thursday's test. This was FEMA-designed, sent a message, and 
they thought it was only within their system; unfortunately, 
Verizon was testing their system at the same time and had the 
gateway inadvertently opened. And so this wasn't designed to be 
an actual test of the system by either party. It was an 
unfortunate event that happened, sort of in the leadup to 
Thursday.
    So it wasn't designed as a test. In a standard test 
authorities would be alerted and people would be made aware. We 
have something set up already for Thursday to alert authorities 
to let consumers know what is happening.
    Mr. Denham. Mr. Penn, as a followup. Even in an internal 
test we would still notify local law enforcement, would we not?
    Mr. Penn. Yes, sir. But again, this was really a test 
designed to be directly between FEMA and the carrier and never 
to be rebroadcast. So, during the test that we are having on 
Thursday, the New York City Office of Emergency Management has 
put together a very comprehensive notification plan, to the 
effect that areas within the city and to the public, and have 
what I think is more than adequate preparation of the public to 
receive the message. But the one yesterday was an anomaly and 
was never intended to be broadcast at all. It was intended to 
stay within the testing environment, as Mr. Guttman-McCabe 
mentioned.
    Mr. Denham. Anything we learned from it?
    Mr. Penn. Yes, sir, we did. And that is just the technical 
aspects of keeping the production environment and the testing 
environment separated. I don't want to go into a lot of 
technical mumbo jumbo about exactly how it worked, but, yes, 
there is something to be learned from it, and I think we have 
taken those lessons. And, not just the one carrier affected, 
but the other three carriers have that message loud and clear 
as well, and understand what happened and how to prevent it 
from happening in the future.
    Mr. Denham. How about the community, the citizens in New 
Jersey that inadvertently received the message from a FEMA 
standpoint? Anything we learned from the action of taking 
shelter and working with local law enforcement as that message 
went out?
    Mr. Penn. I think most citizens did the correct thing, and 
they immediately went to their 911 or to their local emergency 
managers and asked a question about what to do and how to 
react, and I think the city and the providers concerned took 
appropriate actions and immediately released some press 
information. And I think they got the whole message quelled 
fairly quickly.
    Mr. Denham. Thank you. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. And I thank you for 
this hearing. This has been a subject of considerable interest 
to this committee for some years.
    Now, this was, of course, the first test ever done. But you 
can't know if there are problems if you don't do a test. So we 
weren't looking for a perfect test. We were looking to find out 
what the problems were, so we could figure them out before the 
next thing was not a test but the real deal.
    Do you expect to do another test in the near future?
    Mr. Penn. Madam Ranking Member, if I could, I will answer 
that. Yes, we do. When exactly, I am not sure. A lot will 
depend on the information that we get on the 27th of December 
that we share with--that we will work with the FCC on to 
determine what the problems were and how to address them. It 
may be a call to do some localized testing, maybe a call to do 
a national test again. But we really won't know the timing of 
that until we get the full information assembled and analyzed 
and make sure that we solve the correct problem, that we don't 
solve the wrong problem. But we do look forward to regular 
testing in the future and think that it is a vital part of the 
Emergency Alert System.
    Ms. Norton. I was interested that this test lasted only for 
30 seconds and wondered what you would learn from a 30-second 
test, since FEMA itself believed that a 3-minute test was 
necessary.
    First, explain why you decided to go with a 30-second test. 
I would like to know whether a 30-second test gave you any data 
that would be considered reliable upon which to draw 
conclusions; for that matter, if any of the rest of the panel 
considers that the 30-second test feedback is information we 
should rely on.
    Mr. Penn. Ma'am, if I could, I will start. The decision was 
made to reduce the test from 3 minutes to 30 seconds because 
there was quite a bit of concern that the public would not get 
the message that it was a test and would overreact, thinking 
that it was an actual emergency. So the decision was made at 
FEMA and DHS to reduce the amount of time for the test.
    Two things that we wanted to test that we were not able to 
test by reducing the duration. The first is that the Emergency 
Alert System is normally limited to 2 minutes to broadcast a 
local alert. That is not supposed to be the limitation for 
Presidential alert. The Presidential message is supposed to 
continue until it is terminated. So one of the reasons that we 
wanted to have the test for 3 minutes was to test to see if 
that automatic turn-off happened at 2 minutes, or whether the 
message continued. So we were obviously not able to do that.
    The other part that we wanted to test with a longer 
duration was the stability of the system, and that once we 
brought it up and that once the rebroadcasting happened, that 
the system would stay up and stable for an extended period. We 
were not able to test that either. But those are certainly two 
objectives for future tests.
    Mr. Barnett. Ranking Member Norton, the major thing that 
the FCC really wanted to get out of the test and that we set up 
for with our rules for the EAS participants to report back to 
us, had to do with the connectivity. As Ms. Goucher mentioned, 
there are weekly and monthly tests, there are all sorts of 
tests like this, but the thing that has never been tested 
before in that 50 years is that connectivity from FEMA down to 
the primary entry-point stations, and then cascading down 
through all the EAS participants until you get full coverage. 
That is what we were able to get with a 30-second test. And we 
are going have to wait until December 27th to get really full 
data to report to you on exactly what we can learn in the steps 
going forward.
    We do know that the test was received and retransmitted to 
a large majority of the Nation. But there were, as we 
anticipated--and we anticipated because we had two prior tests 
that FEMA conducted in Alaska, so we knew that there might be 
some glitches. That is exactly what we wanted to concentrate 
on.
    Ms. Norton. But my question for both of you is, 
particularly given your answer about 3 minutes being necessary, 
I am struck by, other than the connectivity of the system, 
whether you could have learned anything from a 3-minute--a 30-
second test. And I am concerned that there be a test, a 
realtime test of 3 minutes, and what do you think it would take 
to alert the public so we can get a real test.
    Mr. Penn. Yes, ma'am. As Mr. Barnett mentioned, the ability 
to make the basic connection was our primary reason for the 
test, and 30 seconds was long enough to make the basic 
connection and for the PEP stations to receive the message 
rebroadcast to the broadcast stations, and broadcast stations 
then to send that down to the other stations that they connect 
with. So the duration was 30 seconds for the message, but the 
actual propagation of the message lasted longer as it worked 
its way down through the chain. So if I sent the message to Mr. 
Barnett, the message went for 30 seconds. If he sent it to Ms. 
Goucher, that was another 30 seconds. So that part was in fact 
a 30-second duration, but the time that it took to propagate 
the message down lasted longer than 30 seconds. But that did 
answer our first question, and we will find out the full 
results at the end of the month; and that is, how many people 
were able to receive a message and interrupt their broadcast 
and rebroadcast the message?
    Mr. Denham. Thank you. Mr. Crawford.
    Ms. Norton. Mr. Chairman, if I could say, I think this is 
important to do, to see if the system is connected at all. This 
is not a test. This is not a test in the sense that we meant 
when we said the system should be tested. I understand why it 
is done this way, but I think we have to look forward to a test 
of the system, a 3-minute test. Thank you very much.
    Mr. Denham. Mr. Crawford.
    Mr. Crawford. Thank you, Mr. Chairman. I want to ask Mr. 
Barnett about digital capabilities. IPAWS envisions more than 
just text and audio being transmitted. Additional data such as 
video or other visual aids may be transmitted in the future. 
What is FCC doing to ensure upgraded equipment is capable of 
transmitting and receiving more than text and audio?
    Mr. Barnett. Yes, sir. So you are talking about the total 
system, IPAWS. And the FCC is very much into the next 
generation technologies on this user broadband. That is why we 
have been working closely with FEMA on calling and alerting 
protocol. This was starting our rules back in--all the way back 
in 2007. Those rules indicated that EAS participants would have 
to have CAP ability to receive CAP alert messages. One hundred 
eighty days after FEMA adopted the technical standards that 
occurred in September 2010, within a couple months we actually 
issued another order, because we actually realized it was going 
to take a while for the manufacturers to actually be able to 
create the equipment or EAS participants to be able to 
incorporate that equipment. So in essence we waived it until 
the fall of 2011.
    We issued a notice of proposed rulemaking in essence to 
shift over to the CAP system. It was an absolutely necessary 
precursor to IPAWS to be able to use that type of technology. 
And so we have an open rulemaking on that right now.
    I think the rules, also have also extended the deadline for 
EAS participants to do that until June 30, 2012, because we 
also realize there are other things that are involved. We want 
to deal with the question of certification--whether these 
things need to be certified--training. But I think you will see 
the rules come out very soon, within a matter of weeks.
    Mr. Crawford. Thank you, sir.
    Ms. Goucher, thank you for being here. I am a former 
broadcaster myself in my previous life, so thank you for being 
here.
    You mentioned States are developing their own systems such 
as the one in your home State that you talked about. How would 
you envision the State system is working with IPAWS?
    Ms. Goucher. Seamlessly. I would hope that would be 
seamless. It is my understanding that IPAWS will be an 
Internet-based system. We do think that Internet connectivity 
may pose some problems in some areas where, for example, a 
broadcaster may have their EAS equipment at their transmitter 
location. As a former broadcaster, you have been out to the 
transmitter site. You know that they can be remote. So we are 
looking at ways around that issue.
    We are hoping that some redundancies will be built into the 
system, particularly for Presidential alerts, such as possible 
satellite delivery, so that, you know, we ensure we have 
multiple redundant pathways to get the message through.
    Mr. Crawford. Thank you, ma'am.
    Mr. Penn, I want to talk about Internet and social media 
and some of the things that you are doing to integrate there. 
What we haven't spoken a lot about is using the Internet and 
social media to alert the public. Talk about how the Internet 
and social media will be incorporatedin the development of 
IPAWS in the future.
    Mr. Penn. Thank you, sir. We have done quite a bit of work 
already with the Internet providers and the ability for them to 
receive and rebroadcast the message. The technical part of that 
is actually not exceptionally difficult. The integration with 
them we think will be smooth and seamless.
    They also have a much greater capability to geo-target than 
we originally thought when we started dealing with them; that 
they do have the capability to target smaller areas and not 
just send a nationwide message. So that part has been very 
positive as well.
    We have just started our work with social media. Several of 
the major social media networks have come on board. One has 
even created some software that will help us integrate into 
them, but I think that is really the next big step for the 
program where we need to go from here and how we use those.
    In some recent trade shows, too, it became apparent that we 
not only have the general public with the State and local alert 
officials needing to be involved, but we have a separate niche 
involved when we talk about security for campuses throughout 
the country. And there are several products that we are testing 
to integrate in our system now to focus on the ability of that 
community on the campus to be able to alert itself. So maybe a 
Wi-Fi connection, where the campus can use social media and 
their own internal alerting, that would only go to the campus 
and not necessarily affect the surrounding county and the 
surrounding neighborhood.
    Mr. Crawford. Thank you, sir.
    Mr. Guttman-McCabe, real quick. Is there an app for that?
    Mr. Guttman-McCabe. Yeah, there is. And we saw it to some 
extent in the recent shootings in West Virginia. I think what 
we will see is a continuing evolution and almost a layered type 
of service, whether it is broadcast radio, cable, wireless, or 
social media. And I think that is exactly how this service 
should evolve. We should see that layer, because you are not 
always in front of a radio or a television or Internet 
connection, or don't always have a wireless device in front of 
you. And so what we are seeing is, as a runup to the launch of 
the wireless service, we are seeing some creative people 
putting together services that will work in the interim. We 
hope they continue to act as a complement to a wireless 
service, to a fully deployed IPAWS service.
    Mr. Crawford. Excellent. Thank you, sir. I yield back.
    Mr. Denham. Thank you. Mr. Michaud.
    Mr. Michaud. Thank you, Mr. Chairman.
    Ms. Goucher, what factors set apart States where the 
national tests were--and States where they have experienced 
obstacles?
    Ms. Goucher. Thank you, Congressman. There were some 
technical issues with the national test, as Administrator Penn 
and Admiral Barnett have noted. There were some connectivity 
issues. A couple of primary entry-point stations didn't receive 
the message or failed to relay it. I think I would like to 
drill deeper down in that question, though, and give you an 
answer about why EAS works very well in some places and not in 
others on a State and local basis, which of course is the 
primary use of the system.
    We have a very good system in Maine. Our officials there 
have been very cooperative in setting up the system and testing 
it rigorously. We have a very easy one-hop system that relays 
the message throughout the State from end to end. It should be 
noted, as well you know, that it is a farther distance from 
Kittery to Fort Kent than it is from Kittery to Philadelphia. 
We have a lot of territory to cover, and we set up a very 
simple, elegant system to be able to do that.
    Buy-in in other States in terms of EAS is spotty, which is 
why we are so emphasizing the creation and deployment of the 
training program. Because as of right now, until this training 
program rolls out from FEMA, the only training that public 
officials receive on how properly to use the EAS is the 
operator's manual that comes with their EAS box, which only 
tells them how to plug it in and turn it on. We need rigorous 
training for these folks on how to use the system, when to use 
the system, how to properly craft an alert message. I think 
that is going to go a long, long way toward improving the 
overall use of the system.
    Mr. Michaud. Thank you.
    Mr. Penn, can you give us an example of the time that the 
Emergency Alert System wasn't activated in an emergency?
    Mr. Penn. Sorry, sir, I am not sure I understand your 
question. Did you mean the results of the test or when the 
system has been used before?
    Mr. Michaud. Well, no. In an emergency, has there been a 
time that the system has not worked?
    Mr. Penn. From a nationwide level, sir, prior to the test 
last month, the system had never been tested across the Nation. 
There are some States that use part and portions of the 
Emergency Alert System to do local and State message but no 
national message. And, I do not know of any specific cases 
where anyone at the State and local level has tried to use 
equipment and it hasn't functioned. But I am sure there are 
some instances where it did at least not fully function.
    Mr. Michaud. Ms. Goucher, in your former position and what 
you know, can you give us an example of a time that the 
Emergency Alert System wasn't activated in an emergency, either 
in Maine or in other States?
    Ms. Goucher. Not in Maine, no, I am happy to say. There 
have been situations in other States, however, when the system 
could have been used and it wasn't. My counterpart in Texas 
tells a very sad story about two women who burned to death in 
wildfires because they lived half a mile down a dirt road, and 
the local officials needed to warn people that the fires were 
heading their way, and the only thing they could think of to do 
was to drive up and down the road with a bull horn saying, 
evacuate, evacuate. These women were soap opera fans and they 
were probably watching TV at the time, and an EAS message would 
have reached them and told them to evacuate.
    Now, the times when we see that the system is not used when 
it should be, or not used properly, is generally as a result of 
a lack of training, buy-in, knowledge on the part of the 
issuing authorities.
    Mr. Michaud. Thank you.
    Mr. Barnett, do you know of any example, other than what 
Ms. Goucher had mentioned?
    Mr. Barnett. No, sir, I don't. Training is something we are 
obviously concerned about, particularly if we move into the 
CMAS/PLAN area, because that is another tool for local and 
State officials to be able to use. But I would direct it back 
to Mr. Penn with regard to that training program that FEMA has 
developed.
    Mr. Michaud. Thank you. I yield back, Mr. Chairman.
    Mr. Denham. Thank you. Mr. Hultgren.
    Mr. Hultgren. Thank you, Mr. Chairman. Mr. Guttman-McCabe, 
you highlighted so far that 97 percent of wireless customer 
base is represented by companies that have agreed to 
participate in CMAS. I wondered what your thought is, first of 
all, how difficult that was to get to that 97 percent, and if 
you see it growing, higher, hopefully to 100 percent.
    Mr. Guttman-McCabe. Thank you, Mr. Congressman. It was sort 
of a leap of faith to get to 97 percent because the way the 
statute was organized, carriers had to make a decision to 
participate before they knew what they were participating in 
and before the technical elements or characteristics of the 
service were actually defined.
    And so I was, as someone who participated and testified 
numerous times on behalf of support of the WARN Act, I was 
ecstatic when we saw the number get up to 97 percent. I do 
believe it will get up higher than that, and hopefully 100 
percent, as sort of the costs and the benefits of scale from 
some of our larger carriers flow down, so equipment and 
certainty and understanding get to our smaller carriers.
    But right now the upside and why we think it is so 
beneficial to add wireless as an element to alerting is it 
does, as I said earlier, it adds a layer. And getting 97 
percent of consumers access to this is a tremendous, really, 
benefit to the alerting capabilities.
    Mr. Hultgren. Mr. McCabe, geo-targeting. You mentioned that 
briefly. I know that is an important element of alerting. How 
will CMAS allow for targeting alerts and tell me a little bit 
more how you see that playing out and why that is so important.
    Mr. Guttman-McCabe. Certainly. Right now, the way that the 
advisory committee established the recommendations, it was 
based on a county level. We believe the technology ultimately 
will allow to have even more targeted alerts, although I think 
as part of the group that was sort of investigating this, we 
realized that more often than not you probably don't want to 
alert something smaller than a county when you are talking 
about mobile consumers. If you take Virginia Tech's example, 
you don't want to just alert the campus. You want to be able to 
alert outside the campus so no additional people come into 
areas of danger.
    And so that is why we initially chose counties. And the 
reality is, I think we envision that alert originators will 
over-alert because of the mobile nature of our customers. And 
so from our perspective, we believe the granularity will 
improve over time as part of the evolution of the service, and 
yet it is quite possible that it is never a--you know, a more 
granular, more targeted message is potentially never used 
because of the mobility of the consumer base.
    Mr. Hultgren. Thank you.
    Mr. Penn, I wondered, GAO issued a report on IPAWS back in 
2009. At that time, GAO criticized the lack of strategic 
planning and direction. I wondered if you can talk about how 
that has been addressed and where you feel like we are at as 
far as some of the strategic planning and direction goes.
    Mr. Penn. Yes, sir. Thank you. I took over shortly after 
that report was released. My vision and focus has not changed. 
And we have assembled a great team together. Some of the 
accomplishments that I listed in my opening statement show how 
dedicated that team is and where we are headed.
    So the strategic focus is there. That is on delivering 
alerts and warnings. And the people that you see at the table 
and the organizations that they represent are fully in step 
with us on moving forward with the system. We have actually 
exceeded our expectations in many different areas.
    As an example, we were at a trade show recently, and a 
gentleman from National Public Radio service came forward. We 
did a demonstration with creating a message and disseminating 
it through our test booth. He had a piece of equipment that he 
took and plugged into an old weather radio. We initiated a 
regular alert. That piece of equipment he had took the audio 
message, turned it into text, and turned the text into Braille. 
That is the kind of technology that we have embraced. That is 
what the common alert protocol gives us, is the compatibility 
of existing equipment and the ability to use it.
    Our change from trying to build a single piece of equipment 
to solve a single problem, moving from that to an applications-
based approach where we have a platform that people can bring 
technology into and plug into, I think has been the difference 
in our program. So now we can welcome a gentleman like the one 
from National Public Radio. We have done some work with some 
geo-targeting and plume modeling to develop alerting. And the 
list goes on and on. So I think that basic change is what makes 
a difference for us.
    Mr. Hultgren. Great.
    Again, thank you all for your work. This is very important, 
obviously. We all hope we don't have to use this much, but it 
is so important to have it there and it really does, I think, 
bring that confidence of some of the steps that are moving 
forward. So thanks for the work and I look forward to working 
with you as we move forward on this.
    I yield back.
    Mr. Denham. Ms. Holmes Norton.
    Ms. Norton. Thank you, Mr. Chairman. I have only one 
further question.
    I was interested, Mr. Penn, in the notion that you 
indicated in your testimony about educating the public that the 
test was coming and the overreaction that you were trying to 
guard against. I am not certain I, as a member of the public, 
received that education. So I would like some more detail about 
how you educated the public that a test was in the offing and 
when it would be occurring.
    Mr. Penn. Yes, ma'am. Really, we had an actual campaign for 
releasing information and a lot of the work was actually done 
on a voluntary basis by the broadcasters, satellite providers, 
and the cable providers. They provided public service alerts to 
their individual communities as well as broadcasting alerts 
that we did from FEMA and that Mr. Barnett did from the FCC.
    Also, the news and media outlets were all involved. They 
had quite a campaign as well for publishing it in local 
newspapers and other media outlets. As well, the administrator 
of FEMA went on the air with the major morning news programs 
and broadcast not really a public service announcement, but had 
interviews and warned people of the impending test and what it 
was going to amount to and what they could expect to see.
    If you would like, I can submit to you the entire package 
and the entire campaign and show you what other steps we took 
in some detail.
    Ms. Norton. I think that would be useful, Mr. Penn.
    We note that with the early results that are in, you saw 
some gaps or lapses in audio. That would be concerning because 
of the effect on particularly vulnerable populations like the 
elderly and the disabled. How will you ensure in the short term 
that you are able to reach such vulnerable populations?
    Mr. Penn. Yes, ma'am. We think we have corrected the major 
problem that we had with the audio quality, and that was a 
feedback loop that occurred when one of the encoder/decoders at 
the primary entry-point station rebroadcast a message backup 
stream into the message flow. So even though they got a very 
clear message, towards the end of the message started hearing 
in the background the repeat of the message. That is an easy 
fix. All we have to do there is mute the return phone lines so 
nobody can broadcast the message back in to us--something we 
never thought would happen, something that we didn't prepare 
for, but a lesson learned that is an easy fix.
    We have also already had a Webinar with the industry and 
discussed some other technical issues about the audio. And we 
think we have actually moved forward on that as well. So if we 
had to initiate it again right now, I think the audio would be 
much better. I can't give you a real feel for how much ``much 
better'' is, but by solving the first major problem we think 
that that took care of the biggest part of the problem that we 
had.
    The other issue, as you go further down line andrebroadcast 
the message, you lose some of the message quality anyway. So if 
you start with a bad message, the message quality continues to 
get worse. So by correcting it at the source, we think that is 
going to solve most of the problem.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Denham. Thank you.
    Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman. My first question 
is for Ms. Goucher.
    Ms. Goucher, as you know, FEMA is in the process of 
increasing the number of PEP stations. These are stations which 
are hardened to operate during disasters. However, in places 
that are down the daisy chain of transmissions, there are risks 
that they won't receive a broadcast. Once all the anticipated 
PEP stations are complete, how much of the country would 
receive a broadcast directly from a PEP station?
    Ms. Goucher. It is my understanding that FEMA's goal is to 
be able to reach 90 percent of the population. Not 90 percent 
of the land mass of the United States, but 90 percent of the 
population.
    Mr. Fleischmann. Would any other witnesses like to confirm 
that?
    Mr. Penn. Yes, sir, that is correct. We started with 36 
stations. We have increased to 63. Our final plan is to go to 
77 stations by the end of next year. We think that will give us 
90 percent.
    If I could say as well, part of what we learned during the 
test was that the homework prior to the test is as important as 
the test is. And a lot of the work that Ms. Goucher mentioned 
earlier by the broadcasters, cable industry, and providers 
getting ready, I think set the tone for us to be able to have a 
much better message propagation capability than we had before 
the test.
    Mr. Fleischmann. Thank you, Mr. Penn.
    My next question is for Dr. Check. As you have pointed out, 
the message is sent from FEMA to the PEP stations and then 
rebroadcast to other stations. Where does cable fall in this 
distribution chain? And as a followup, do cable operators 
receive broadcasts directly from FEMA or from the PEP stations, 
sir?
    Mr. Check. Cable operators' receivers are at the end of the 
chain. This may be, for example, the Mid-Atlantic area, just to 
give you an example here. So FEMA would send a message out to 
the PEP stations. In the Mid-Atlantic area, that station is 
WBAL in Baltimore. That resends the message out then to local 
area stations in the Washington, DC, area. That would be WTOP, 
the news station, and WMAL, an AM radio station. Then cable 
operators here in the Washington, DC, area listen to those two 
local Washington stations to receive the signal.
    Mr. Fleischmann. Thank you. Mr. Chairman, I yield back. 
Thank you.
    Mr. Denham. Ms. Norton.
    Ms. Norton. No further questions, Mr. Chairman.
    Mr. Denham. Mr. Penn and Mr. Barnett, recently the 
Corporation for Public Broadcasting entered into apublic-
private partnership to begin a pilot program to test out a 
mobile emergency alert system which would use the existing 
mobile digital TV, the DTV systems, for alerts. That system 
would be able to send not only text and audio but also maps, 
videos, and photos. Are you aware of this pilot, and do you 
believe this could be incorporated into the IPAWS system?
    Mr. Penn. Sir, I am not personally aware of exactly the 
program that you are talking about. But there is, as I 
mentioned before, a lot of parallel development that is going 
on in the private industry for different products. We have a 
test lab that is set up through Science and Technology at DHS, 
where we can take technologies like that and ensure that they 
are compatible with the Common Alert Protocol and then label 
them as such so that the emergency managers in the field will 
know that they have a product that is capable of interfacing 
with IPAWS. That particular product, I am not aware of.
    Mr. Denham. Mr. Barnett.
    Mr. Barnett. Yes, sir, I am aware of the tests that have 
been going on. Nevada is one of the places I know where they 
have done some testing with that concept of being able to get 
maps and things out to first responders and those types of 
things. I don't know that they are having discussions about how 
that would work in the IPAWS, or if it would.
    Mr. Denham. Ms. Goucher, you briefly talked about theDTV in 
your opening statement. Can you expand on that a little bit?
    Ms. Goucher. I am sorry, Mr. Chairman, spoke about?
    Mr. Denham. Mobile DTV.
    Ms. Goucher. Mobile DTV and how that fits in. Absolutely. 
Broadcasters are rolling out mobile digital television 
capabilities throughout the country. It is available right now 
in Washington, DC. It is coming to more and more markets every 
day. And what this does is give just one more enormous 
capability of being able to stand on a street corner with a 
mobile device and watch a streaming TV signal with news and 
information and emergency alerts.
    During the earthquake and subsequent tsunami in Japan, 
people were standing on the street in Tokyo watching this 
unfold live. It is an enormous capability and broadcasters are 
just extremely pleased to be able to deliver that capability to 
the American people, because we think it is just one more 
important pathway and an important enhancement to our ability 
to inform people in times of emergency.
    Mr. Denham. Thank you.
    And Dr. Check, you mentioned in your testimony limited 
ability of cable operators to alter the message received. For 
example, if a language translation is needed, IPAWS envisions 
data being transmitted that may contain information that 
includes translations, video, or other forms of information. Do 
you believe the upgraded equipment will allow cable operators 
to receive more than just short text or audio?
    Mr. Check. Well, for multilingual messages, we will 
certainly be happy to pass that information through, and 
certainly with the IPAWS CAP system there is the ability for 
enhanced text messages. We believe, though, that 
formultilingual, the responsibility ought to be with FEMA or 
the message originator, either at the national or State level, 
to provide those different messages.
    Mr. Denham. Thank you.
    Mr. Penn.
    Mr. Penn. Yes, sir, I agree. That is a challenge that we 
are working now, is how to integrate languages other than 
English into the system. A large part of the solution is going 
to be local, though, because local communities have different 
requirements and different languages that they need to speak. 
So our initial vision is that there will be the broadcasting of 
some standard message in different languages that tell people 
that there is an emergency and that they need to consult their 
local emergency service providers. We haven't broken the code 
and we haven't gotten to the point now where we feel 
comfortable being able to give a multilingual message across 
the Nation.
    Mr. Denham. Thank you. I would like to thank each of you 
for your testimony today. Your comments have been very 
insightful in helping today's discussion.
    If there are no further questions, I would ask for 
unanimous consent that the record of today's hearing remain 
open until such time as our witnesses have provided answers to 
any questions that may be submitted to them in writing, and 
unanimous consent that the record remain open for 15 days for 
any additional comments and information submitted by Members or 
witnesses to be included in the record of today's hearing.
    Without objection, so ordered.
    I would like to thank our witnesses again for the testimony 
today. And if no other Members have anything to add, this 
subcommittee stands adjourned.
    [Whereupon, at 10:44 a.m., the subcommittee was adjourned.]

                               <all>
</pre></body></html>
